           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      SECURITY FEATURES
            ON THE
     SOCIAL SECURITY CARD


   December 2003   A-08-04-24079




   MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   December 18, 2003                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report: Security Features on the Social Security Card
        (A-08-04-24079)


        On October 20, 2003, we shared with the Social Security Administration (SSA) our
        concern that the “VOID” security feature imprinted on original Social Security cards may
        cause confusion in the employer community and may not be fully understood by SSA
        employees tasked with assisting these employers (Appendix C). Your
        December 1, 2003 response made it clear that you share our concerns (Appendix D).
        I commend you for the steps SSA plans to take to modify the “VOID” feature, educate
        staff on the security features, and assist the employer who experienced trouble with this
        feature.1

        As we noted in our recent Major Management Challenges report,2 the Social Security
        number (SSN) is the single most widely used identifier for Federal and State
        governments and the private sector. It has become the de facto national identifier. In
        Fiscal Year 2003, SSA issued over 17 million original and replacement SSN cards.
        Furthermore, an important part of ensuring the integrity of the SSN is the proper posting
        of earnings reported under SSNs. If earnings information is reported incorrectly or not
        reported at all, SSA cannot ensure all eligible individuals are receiving the correct
        payment amounts.

        We understand the particular security feature, which confused the Employer as noted in
        our October 20th memorandum, was first used in 1988. This “counterfeit resistant”
        security feature, which has the word “VOID” disguised in the card’s blue tint area, was
        intended to be visible only when photocopied. This “VOID” feature could now be
        present on a significant number of Social Security cards. In the last 10 years alone,
        SSA has issued about 170 million Social Security cards, many of which may be
        presented to employers by individuals seeking employment.

        1
          For privacy purposes, we are not disclosing the employer’s name in this report, and we will hereafter
        refer to this entity as the “Employer.”
        2
         Inspector General Statement on the Social Security Administration's Major Management Challenges,
        (A-02-04-14034), November 2003.
Page 2 – The Commissioner


With all of this in mind, we believe your planned steps to correct the security feature,
train staff, and educate employers will assist SSA in maintaining the integrity of the
Social Security card. We look forward to working with you on similar issues so that,
together, we can improve the services offered by SSA and protect the SSN, which has
become such an important part of the U.S. economy.




                                                James G. Huse, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Office of the Inspector General October 20, 2003 Memorandum

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A
Acronyms
 ESLO      Employer Service Liaison Officer

 OIG       Office of the Inspector General

 SSA       Social Security Administration

 SSN       Social Security Number
                                                                 Appendix B
Scope and Methodology
To accomplish our objective, we

•   reviewed relevant Social Security Administration (SSA) regulations, policies,
    and procedures;

•   discussed Social Security card security features with SSA staff, including
    Employer Service Liaison Officers, field office staff, and security personnel;
    and

•   discussed Social Security number issues with an employer who had
    questions about the security feature.

The SSA entity reviewed was the Office of the Deputy Commissioner for
Operations. We conducted our review in October 2003 in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for
Inspections.
                                  Appendix C
Office of the Inspector General
October 20, 2003 Memorandum
                                 SOCIAL SECURITY

MEMORANDUM

Date:   October 20, 2003                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Security Features on the Social Security Card – INFORMATION



        I am writing to advise you of a recent conversation between [a large employer]
        and our Office. The matter concerns [the Employer’s] confusion about the
        “VOID” language placed on Social Security cards – one of many security features
        the Social Security Administration (SSA) has developed over the years to protect
        the integrity of the Social Security number (SSN). While we commend SSA for
        its continued efforts to reduce SSN misuse in the economy, we are concerned
        that this particular security feature may cause problems with employers.

        Based on conversations with [Employer] officials, the local District Manager, and
        Employer Service Liaison Office (ESLO) staff, it appears that valid Social
        Security cards are being mistaken for invalid cards because the “VOID” language
        can be seen on the surface of original cards. While we understand the “VOID”
        language should only be seen on photocopies, it appears that a close inspection
        by some employers can still detect this wording on original cards. As a result, a
        number of job applicants have been turned away [by the Employer], and the
        corporate office is discouraging any further hiring of individuals with such cards
        until SSA is able to confirm their validity. Furthermore, our conversations with
        SSA’s ESLO, regional security and integrity, and field office staff revealed they
        were not aware of this particular security feature, which could represent a
        problem if this same staff is expected to assist employers with similar problems.

        I am bringing this to your attention, first and foremost, so that this specific
        problem with [the Employer] can be resolved. [The Employer is a large
        company] and any questions regarding the validity of Social Security cards
        should be resolved before more individuals are denied employment. In addition
        to this immediate concern, your office may want to revisit this particular security
        feature to determine whether (1) SSA staff are properly informed about the
        purpose of this feature and (2) the feature in question is having the intended
        effect of reducing SSN misuse.



                                                C-1
Page 2 – The Commissioner

We look forward to working with you on this issue. If you have any questions,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.



                                                   /s/
                                                   James G. Huse, Jr.

[We removed references to the specific employer to protect the employer’s privacy.]




                                          C-2
                  Appendix D
Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM


Date:       December 1, 2003                                                  Refer To: TAPJ3

To:         Inspector General

From:       The Commissioner /s/

Subject:    Security Features on the Social Security Card (Your Memo, 10/20/03)--RESPONSE

           This is in response to your recent inquiry regarding security features on the Social
           Security Number (SSN) card, and specifically, problems with [the Employer] as a
           result of these features. Thank you for bringing this matter to my attention. We
           agree that continued use of the VOID pattern on the SSN cards is no longer a
           useful security feature and we have arranged to remove it from the next printing
           of the SSN card. We anticipate the next printing to take place by the middle of
           2004. The exact printing schedule will depend on completion of the SSN card
           redesign and depletion of the current supply of card stock.

           We also agree that field employees should be familiar with the security features of
           the SSN card and will update the POMS section and provide training addressing
           changes to the security features when the new card is printed. You may be
           interested to know that we are replacing the VOID pattern with a latent image of
           the acronym “SSA” as a new security feature.

           Staffs in the Dallas Regional Office and in the local field office have discussed this
           matter with various [Employer officials] explaining that some valid SSN cards may
           have a visible VOID pattern. In those discussions, [Employer] officials indicated
           their main concern is whether SSN cards with a visible VOID pattern meet the
           requirements for Department of Homeland Security’s employment verification
           process. The Dallas Regional Office has prepared a letter to [the Employer]
           advising that SSN cards that do not bear a printed legend can be accepted to
           establish employment eligibility. For cards that bear the legend, “Valid for Work
           Only With DHS Authorization” or “Not Valid for Employment,” employment
           eligibility must be verified with DHS.

           We recognize that [the Employer] regularly uses our electronic Employer
           Verification System to validate SSNs used for reporting wages to the Internal
           Revenue Service. We have ensured [Employer officials] that our staff is


                                                    D-1
Page 2 – Inspector General

available to answer any future inquiries about questionable SSNs.

Thank your for your interest in this matter. Please contact me if I can be of further
assistance.


[We removed references to the specific employer to protect the employer’s privacy.]




                                          D-2
                                                                       Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

      Walter Bayer, Director, (215) 597-4080

      Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to the persons named above:

      Cliff McMillan, Senior Auditor

      Mike Thomson, Senior Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-04-24079.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
